*

APPENDIX
A
ORDER DENYING DEFENDANT'S
MOTION FOR POST CONVICTION RELIEF

Filing # 89758188 E-Filed 05/20/2019 09:04:54 AM
31,

IN THE CIRCUIT COURT OF THE
SECOND JUDICIDAL CIRCUIT IN AND FOR
GADSDEN COUNTY, FLORIDA
STATE OF FLORIDA
CASE NO. 2005-844CF

vs.

i
»T

ilfn
tig

=13
&m

*15
8 33

sci
sm

HERNANDEZ DANIELS
DEFENDANT

30

c

nRnff.R DENYING DEFENDANT'S
MOTION FOR POST CONVICTION RELIEF
THIS CAUSE came before the Court on a series of documents filed by
Defendant’s Hernandez Daniels asserting various claims under Rule 3.850 Florida
Rules of Criminal Procedure.
*

Defendant’s Documents

Mr. Daniels filed the following documents asserting claims under
Rule 3.850.
a. Application Motion Under Rules 3.850 to Vacate, set aside or coirect
sentence filed on January 14,2013.
b. Memorandum of Points and Authorities in Support of Motion for
Post-Conviction Relief Pursuant to Florida Rules of Criminal Procedure
3.850 filed January 14, 2013.
c.

Motion to Amend Memorandum of Points and Authorities in

Support of Motion for Post-Conviction Relief Pursuant to Florida Rules of
Criminal Procedure 3.850 filed March 26, 2013.
d. Mr. Daniel’s Response in Opposition to the State’s Response to Mr.
l

Daniel’s Motion for Post-Conviction Relief filed April 33, 2013.
The Court issued an Order setting Claims 1,3, and 11 for evidentiary
hearing. The Court denied Claims 2, 4, 5,6, 7, 8, 9, and 10.
An evidentiary hearing was conducted on July 22, 2016. The Defendant was
not present but appeared by telephone. The Defendant currently has a Federal life
sentence. The Court found that Defense Counsel made every reasonable effort to
secure the presence of the Defendant to no avail.
At the conclusion of the evidentiary hearing, the Court permitted the
parties to file closing arguments. The Court has reviewed the record and the
closing arguments and responses thereto and otherwise being fully advised in the
matter hereby finds as follows:

Claim One
Defense trial counsel rendered deficient performance by failing to call
alibi witness Renardo Daniels at trial.
Defendant alleges that trial counsel was ineffective for failing to call as an
alibi witness his brother., Renardo Daniels. Mr. Renardo Daniels testified at the
hearing that he was present at the trial and was never called as a witness either
by the State of Florida or by the defense. Mr. Renardo Daniels testified at the
evidentiary hearing that had he been called by the defense to testify that he
would testified before the jury that his brother was nowhere near the murder in
that he was delivering medical supplies. Mr. Renardo Daniels testified that the
night of the murder his brother picked him up around 8PM and he was with him
2

until he completed his deliveries around 4am. He testified that at no time did he or
his brother come near to where the victim was murdered.
Clyde Taylor trial counsel testified that he did not see the need to call
Renardo Daniels as a witness considering the State’s theory of the case. The State
of Florida theory of the case was that the Defendant Daniels was a principal to
murder not the actual killer.
Under the standard set out in Strickland vs. Washington. 466 US 668,
104 S.Ct. 2052, 80 L. Ed2d 674 (1984) and Johnston vs. Tucker 70 So.3r 472, in
ordei tor a Defendant to prevail in an ineffective assistance of counsel claim he
must satisfy two requirements. First, a defendant must show that counsel’s
action or omissions were deficient and, second, the deficiency established must
further be shown to have affected the proceeding that confidence in the outcome is
undennined.
Under the first prong of the standard set forth in Strickland, “judicial
scrutiny of counsel’s performance must be highly deferential” and added that “a
court must indulge a strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance”. Id
The Court clarified that this reference to “highly deferential scrutiny”
refereed only to the first or performance prong of the test and meant that:
“...the defendant must overcome the presumption that, under
the circumstances, the challenged action ‘might be considered sound
trial strategy.”

3

^trir.kland v. Washington- 466 U.S. at 689-691.
The Court added that:
•'strategic choices made after through investigation of law and
facts relevant to plausible options are virtually unchallengeable,
and strategic choices made after less than complete investigation are
reasonable precisely to the extent that reasonable profess,onal judgmen
supports limitations or investigation, in other words, counsel has duty
reasonable decision that makes particular invest,gallons
to make a
unnecessary.” Id.
Trial Counsel testified that the defense had two theories, “one was the
evidence clearly su
The second theory'

ggested that the homicide was committed by one person ...
of defense was someone else did it, specifically Anna Chukes

case was the principal
Mr. Taylor testified that the State’s theory of the
murder. The State theorized that the Defendant hired another
theory of felony
victim and did not actually commit the homicide himself. Unde
person to kill the
need for Mr. Daniel to be present at the crime scene did nol
the State’s theory, the
exist. Mr. Taylor testily that under the Stale’s theory and the defense
theories the need for an alibi witness for the early morning hours of the shooting
never really came to the fore with the defense team.
decision not to pursue a theory of defense which would have
Mr. Taylor’s
of strategy and must be given deference by
necessitated an alibi witness was one
A review of the hearing transcript demonstrates that the defense
this Court.
template the use of an alibi witness . The Court
had a strategy that did not con
evidence that the failure to call an
finds the Defendant has not put forth any
ot a reasoned trial strategy of the trial counsel. Further, the
alibi witness was n

defendant has failed to establish that the strategy put forth by the trial counsel
was outside of the standard of professionalism as required by Strickland vs.
Washington, Id.
Claim one is hereby DENIED.
Claim Three
Trial counsel rendered deficient performance by failing to call
Tara Daniels at trial.
Mr. Daniel alleges that trial counsel rendered insufficient performance for
his failure to call as a defense witness the Defendant’s wife at the time of trial and
ex-wife at the time of the evidentiary hearing. The Defendant alleges that had
Ms. Daniel been called as a.defense witness she would have testified that when the
Defendant arrived home on the night/early morning of the murder his demeanor
did not appear to be out of character.
The Court does not note that Ms. Daniels failed to appear at the post­
conviction hearing. Mr. Baya Harrison advised the Court that he personally spoke
with Ms. Daniels and that she was served with a subpoena.
Trial counsel, Clyde Taylor testified that just as he did not believed there
was a need for an alibi witness in the defense strategy he'did not believe he needed
testimony from the Defendant’s wife, Tara Daniels that the Defendant did not
behave differently when he came home 5:30AM. Mr. Taylor testified that the
State’s theory of the case against which he was defending did not suggest the
Defendant committed the murder. Because the Defendant was not alleged to have

5

been the actual shooter Mr. Taylor did not see the need to call Ms. Daniel as a
witness.
Mr. Taylor’s decision not to pursue a theory of defense which would have
necessitated calling as a witness Tara Daniels was one of strategy and must be
given deference by this Court. A review of the hearing transcript
demonstrates that the defense had a strategy that did not contemplate the
Defendant as the actual shooter so his demeanor was not at issue. The
Court finds the Defendant has not put forth any evidence that the failure to call
Tara Daniels was not a reasoned trial strategy of the trial counsel. Further, the
Defendant has put forth no evidence that the strategy engaged in by the trial
counsel was outside of the standard of professionalism as required by Strickland
vs. Washington, Id.
Claim Three is hereby DENIED.

Claim Eleven
Trial counsel rendered deficient performance by failing to object to a
Brady violation for failure of the State to disclose two “cardboard notebook
backs” containing notes taken from one of the State’s witnesses.
The Defendant alleges that a Brady violation occurred because the State
failed to produce the notes of witness Willie Nelson written on the back of a
cardboard notebook. Further trial counsel was deficient in his performance
because he failed to object or filed a Brady violation motion.
6

The testimony of trial counsel as does the Court record refute this claim.
The records were produced on May 22,2006 . Claim Eleven is therefore DENIED.
ITT

HEREFORE ORDERED AND ADJUDGED that the Defendant s

Motion for Post-conviction relief for the reasons set forth above is hereby
DENIED. The

Defendant is hereby advised that he has thirty (30) calendar days

front the date of rendition of this order to seek review in the First District Court of
Appeals 2000 Drayton Drive Tallahassee, Florida 32399-0950.
DONE AND ORDERED

in Chambers at Quincy, Gadsden County, Florida

VK

on this Z<Dday of May2019.
Barbara K. HoTtfrsCircuit Judge
Copies provided:
Hernandez Daniels, Defendant
Baya Harrison, Defense Attorney
Stephanie Morris, ASA

APPENDIX
B
FIRST DISTRICT COURT OF APPEAL
ORDER AFFIRMED DECISION

First District Court of Appeal
State of Florida
No. 1D20-260
Hernandez Daniels,
Appellant,
v.
State of Florida,
Appellee.

August 28, 2020

Per Curiam.
Affirmed.

Roberts, Osterhaus, andM.K. Thomas , JJ., concur.

Not final until disposition of any timely and
authorized motion under Fla R- App. P. 9.330 or
9.331.

Hernandez Daniels, pro se, Appellant.

APPENDIX
C
SUPREME COURT OF FIORID4 ORDER
DISMISSING PETITIONER'S CASE

Supreme Court of jflortba
MONDAY, NOVEMBER 9, 2020
CASE NO.: SC20-1632
Lower Tribunal No(s).:
1D20-260; 202005CF000844AXXXMX
HERNANDEZ DANIELS

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, 296 So. 3d 895 (Fla.
2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State, 926 So. 2d
1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003); Stallworth v.
Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So. 2d 1279 (Fla.
1987); Dodi Publ’g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla. 1980); Jenkins
v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

^22
John A. Tomasino
Clerk. Supreme Court
td
Served:
TRISHA MEGGS PATE
HERNANDEZ DANIELS
HON. BARBARA KAYE HOBBS, JUDGE
HON. NICHOLAS THOMAS, CLERK
HON. KRISTINA SAMUELS, CLERK

APPENDIX
0

FDLE INVESTIGATIVE REPORT

•

FLORI r* *«. DEPARTMENT OF LAW ENFORCEMENT
INVESTIGATIVE REPORT

the Ftorida DenartmpnfnM ^
identmad as stance Dupont who was working for
u„™ Thf rt
, of Law Enf°mement was executed inside her residence in the City of
T 6 !xecut,l0n was da,ermi"ad to be the result of her cooperation with law
Ga^dsden* County<area° V6d " “ ^ had ^ 3
W - "a“n E

SiJpSp?
statement from'hie'lson'doc'umentinghirknovdedge ofitheeDulponrrriurderainiri9 3

^

On January 3 2005 SA Biddle met with Nelson and obtained a statement from him with reoard
o his knowledge of the Dupont murder. (See Investigative Report #94 of this case file.)
°nwMlrCh U'3°05' Ne'SOn stated that while in the Federal Detention Center in
he wanted sn^ndi’ hfmet He™adez Lopaz Daniels. Nelson had made some statements that
frtnH p d
wdTldlf '? °ne °f hls cases ki,led- Daniels overheard Nelson and told him of his
fnend FernancJo Taylor (AKA: Wolf). Daniels said that for a fee, he could get Taylo ^o take
care of any business that Nelson needed. Daniels gave Nelson a scenario ss to how he had a
in
C.onst!.nce (Dupont) murdered. Daniels told Nelson that the murder took place
th°ndah .Pan,els.told Ne,son that he took Taylor over to where Dupont lived^nd
thm + s£ot through the window of Dupont’s home. After the murder happened Daniels said
Du%n°was dea2n,n9- Danie'S
** he kneW the j°b had been taken care of, and that
Nelson added dunng this interview that Daniels and his brother, Delovontez Washinqton had a
the STHrihnar'nVe(S,i9li°rt0m ,he area named Jim ConW (Jim Corded a member ol
dfdef n Co?nty JShenfPs Office Narcotic Unit.) Nelson stated that Corders had
from Quinct S'TpifJ? Wash,ngton- Daniels said that he and Washington followed Corders
from Quincy nto Tallahassee. Daniels said that they followed Corders to an area pool hall
to the ooofhan for that Wash'n9ton was 9oin9 to hurt Corders, and that they had followed him
n
reason' Daniels said that Washington did not follow through
throuoh with it ° nUTIo S3,d that
and l0Cati0n was just not right for Washington to go
through with it. Nelson was unable to provide any additional information with regard to the
investigation.

Case Number:TL-01-0060
Serial#: 107
Author: Biddle, Walter James
Officesallahassee
Activity Start Date:03/14/2005
Activity End Date:03/14/2005
Approved By:E!lis, Michael Richard
Descriptionsaped sworn statement received from Willie Nelson
CONFIDENTIAL AND EXEMPT FROM DISCLOSURE UNDERAPPLICABLJE LAW ^ITS^^
CONTENTS ARE NOT TO BE DISTRIBUTED OUTSIDE YOUR AGENCY.

Pagel

102120060103095122

I?

Case Number: TL-01-0Q6f
IR Number: 107
Items Section ofSred as'RebtadlSo*"1 ^ maln,ained inthe R^ted
he and discussed'during tt^encoi3^^,*f

he look n°tes ef 'vha! IDaniels and

the Related Items Section oft** case file and 8^^ Retejftem0*!
The investigation info the

murder of Constance Dupont is ongoing.

Page >

^ "^iniained in

‘LNVTiaddV dO ANOWIlsai
a
XIQNaddV

41

t "

1

A

She could testify to that,

2

Q

3

A

is there anything else she could testify to?
no.

4

Q

All right.

5

Did you tell Mr. Taylor about what she

might be able to testify to?

6

A

Yes.

7

Q

You did.

And did you ask him to call her as a

Yes.

Monica also Jordan also, she could

8

witness?

9
10

A

ms.

testify to it.

11

Q

Al 1 right.

Now

I'd like to ask

12

claim number 11.

13

entitled to an

14

summarized it on page 13 of his order

Judge Sjostrom ruled that

you about your
you were

evidentiary hearing on claim number 11.
as follows.

15

Brady violation for failure

16

notebook backs containing notes taken by one of the
witnesses.

17
18
19
20

A

Willie Nelson.

22

Q

Okay.

A

Against me.

24
25

Alleged

to disclose two cardboard

which witness had information about two cardboard
notebook backs or had written something on those backs?
who was that witness?

21

23

He

And do you recall what Willie Nelson
testified to at your trial? Did he testify for
you or
against you?

STEPHEN W. JACOBSEN, RDR - OFFICIAL COURT REPORTER

42

1
2
3

Q

Against you.

And what did he say that was

damaging to you? what did he say that you claim
was not
true?

4

A

Say that again,

5

Q

what did Willie Nelson testify to at trial, as you

6

recall?

7

A

That was not true?

8

had Constance DuPont killed

9

doit.

10
11

Q

13

A

15
16
17

18

that I paid Fernando Taylor to
That I went to Sunshine Trailer Park in Leon County

and knocked on her door and walked up to — then Fernando
Taylor walked up to her door, shot her and ran off.

12

14

That I admitted to him that I

All right.

And more stuff, but I can’ t remember everything,
Q
Okay. Let me ask you this, what is it that
was
written on the cardboard notebook back? what were the notes
that were written?
_A

i don't know.

They wasn't ever disclosed to us.

I never received a copy of the cardboard notes.

19

Q

Well —

20

A

Due to the cross examination.

21

Q

okay.

22

important for you and for your

23

A

24

stand.

25

And you feel those would have been

it would have contradicted his story from the

Backing up the notes would have been the same as
what he testified to.
STEPHEN W. JACOBSEN, RDR

OFFICIAL COURT REPORTER

43

1

Q

All right.

2

A

NO.

Did you tell Mr. Taylor about this?

I only discovered the

notes — about the

3

cardboard notes when i was doing my 3.850 motion.

4

Taylor filed a motion for the

5

mate ri al s.

State to turn over all Brady

6

Q

All right.

7

A

They didn't turn over that,

8

evidence, and didn't turn it over.

9

MR. HARRISON:

10

All right.

limited to those claims,

Mr.

They had that

Your Honor, since we’ re

and since I believe Mr. Taylor

11

is going to testify and I can ask him about claim 11

12

there's no need to have to do this twice, those are all

13

the questions I have.

14

THE COURT:

All right.

15

MR. COMBS:

Just a couple of questions.

16
17

Cross.

CROSS EXAMINATION
BY MR. COMBS:

18

Q

19

A

Mr. Daniels, you knew Fernando Taylor, correct?
Yes.

20

Q

And he was often referred to as wolf?

21

A

Yes.

22

Q

That was his nickname.

And I understand that when

23

you met with your attorney Mr. Taylor, you told Mr. Taylor

24

you did not pay Fernando Taylor to kill Constance DuPont, is

25

that correct?
STEPHEN W. JACOBSEN

RDR - OFFICIAL COURT REPORTER

appendix

trial attorney mr. TAYLOR’S TESTIMONY

64
1

Q

John Miller?

Do you recall what he said in his

2

statements about that we

3

i and Mr. Taylor went to the apartment and killed her, but
then the testimony on the stand that was a lie, that I
didn't tell him none of that, and other snitches
are lying
on me, because --

4
5
6
7

that i and somebody went there,

A

8

Yes, I know a couple of the snitches
were making
statements that were not consistent with non snitch

9

witnesses.

10
11
12
13
14
15
16

Q

But John Miller, the actual wi
witness for the State,
was called by the state, but he changed the testimony to
tell the truth —
A

Miller came in and said he was not going to say
what the State wanted him to say. it was so powerful that
we did not even cross examine Mr. Miller when he
came in.
Q
okay. Did the state Attorney ever reduce the two

17

cardboard notebooks, or a copy of them? They never did

18

reduce those, did they?

19

a

we keep talking about the cardboard,

All i know

20

is I saw written documents

21

taken, and there were some that were block printed,

22

-•

or notes that were supposedly
we made

a big deal about that

23

and the issue concerning these
specific ones I don't recall right

24

at the time of the trial and

25

cross examine the witnesses that the state put on.

now, but I had everything

i had the documents in order to

STEPHEN W. JACOBSEN, RDR - OFFICIAL COURT REPORTER

And i

65

1
2

think the record shows that.

3

those?

4

A

I'm sorry?

5

Q

Did you ever get a copy -- ask for the Brady

6
7
8

Q

Okay.

But the state never did produce a copy of

material, and did the State produce
a copy of those, a
physical copy of the two cardboards?
They never produced
that, did they?

9

A

I didn't get the cardboard, no.

But we had the
we had copies of writings of witnesses. I don’t

10

documents.

11

know how to answer that question.

12
13

14
15
16

Q

what I'm trying to go at, the statement never had
the actual words that came over the cardboard.
it’s just
had the words through the cardboard that was written, and
the state never produced those two cardboards
copies of
those cardboards for you. After you asked for all the

20

Brady
materials, and even though it was Brady,
most of that, they
didn’t produce all the evidence around.
So what I’m saying
is that they never physically actually produced
a copy of
those cardboards to you. They produced a copy of the

21

overall, but never actually produced a

17
18
19

22
23
24
25

of those two cardboards.
A

copy, a physical copy
is that correct?

I don’t recall that.

My recollection is that I

had all the discovery, and before
down through the checklist
STEPHEN W. JACOBSEN, RDR

we start a trial we go

of everything that has been
OFFICIAL COURT REPORTER

66

1

provided, and basically one or two of us read off a

2

document, and then we find it and make

3

don't see anything to indicate

4

so I don't know how to answer that question.

5

8
9
10

i

I didn't have that discovery,

I can't tell

you what I don't recall.

6
7

sure it's there,

Q

Okay.

But it still doesn't say -- they didn't

actually give you a copy of the cardboard notes.
I'm saying.
A

That's all

I don’t recall seeing cardboard notes, copy of

statement

11

Q

That's all I’m asking you, sir.

12

A

Okay.

13

Q

And as far as the witness list, Ms. Monica Jordan,

14

she s very good at what she do, because i got to know her

15

real good, she would go over that stuff, she would
put in
her -- she would inject her opinion who I need to call
as a
witness right, and -- is that correct?

16
17

18

A

19
20
21

THE COURT:

He said would she interject in her

opinion as to who should be called as a witnesses, and
give it to you?

22
23

i didn’t hear.

THE WITNESS:

Talking about Ms. Jordan?

BY THE DEFENDANT:

24 '

Q

Yes.

25

A

Yeah, the whole defense team would have input from

STEPHEN W. JACOBSEN, RDR - OFFICIAL COURT REPORTER

M&lAhaAU SSSN1IW
,9
XIQNSdd^

f

«*

10/09/2008
5

•

10:26

8502242 33

* i

DOBSON DAV > g. SMITH

PAGE 03

To: Hernandez Daniel* fi]
From: MLJ
Date: 10-6-08
R®: Witness overview
Chadric Anderson
Inmate Register#: 11947 )17
Yazoo City FCI
Yazoo, Mississippi
Serial #119

Dupont I have Andersont .ttlSSlS *ot towns the one tl ttldlkd
•

1

Horace Austin
14925 Fairbanks Ferry R id
Tallahassee, Florida 3231
Seria(#104

shoo^S “1”; %?££T“2*? Hew“ * a”-Wi~‘ „

UwtnnocEdn^snw^
Malinda Black
■

<to

camfh'^m'timeofConstance E Spo„fs

She „ home

needs to find and interview

re. MJ

566S46riCkReyeSBr°Wr ^ to be listed as witness)
Daniels brother, wov 1 dtive for Daniels when he went to 3ooifey because be w

s tired.

. 10/0.9/2008

1

26 •

‘ *

8502242283

DOBSON DAVIS & SMITH

PAGE 04

Nan Car pbell
Chattah >chee, Florida
^e^ef^ flimb°

*® UK wiretaps on Lo

3Z’s

sxs;
sr ^sSSSWsssksb:
GregCa :er

AnnaCb kes
fugitive
advise i»
ff’Pau’
"™‘ 10 Havana Police Department and w
P0 ;* **“»)» Fad a verba! altercation with Anna Chukes earlier taftedav Ann ntedto
wantedS trident
^
“rfl oall my people and have them knock you off.” ackson

£ r^tSST"^ “ “® “““"I fewe"«i «*>■

Departs faD^^”a'^"^.edWilllC0"S,anCeDuP0“i!'^HavanaPolice
pSta i
fr °fCoca™=
io*™ *0 Sell and Possession oft ug

2Ss
Lfcrsr"rg
s
oD
about
1,
1
6
^bc^
^
c“-'
tMCoS S£rsrtai"' She made statements to John Farier,

ilich led

lm_,k enforcement questioned Anna Chukes on August 3,2002. Serial dlOeive;
a^mrtn; of Chukes whereabouts for August 2.2002, according to Anna. SheaSeet o take a
tfdSh rt &im ai^ non-lnJ1kkd Iegardiag telling anyone she tvas noinv
usance
ZZZ
te,lKlg a,vone sh6 '™tal
dead or kno^fwho sb
October^ ;0M^oA-d002’aCViaSWaSi?UaiforChukeS'"est ^^aneste Ion
False IDtc tef Pwf'2002’C)"*es was adjudicated guilty of Possession of Cocaine, aving
pmbation: c 30montoandJveniTd^cSr^^^ n
F^ ktw^5 “
?f Afravated As*»dt '"«> a Deadly Weapon,
judgement andcSSa ',,,ewhen she absconded and chaining all of her trtffied
od-A^enar^Q> V<mt€^ Daniels (needs to be listed as witness, notice of alibi)

850-S56^455

Daniels’Sd s«°^a w!‘ T ridi?? ^ Dmiels to B°mfay, ho would drive because

uJiswxjrxsxsssszKxaKsr

■Ut

•

APPENDIX

H
ATTORNEY GENERAL RESPONSE

r
4ii*

actual words that came over the cardboard. It's just
had the words through the cardboard that was written,
and the State never produced those two cardboards
copies of those cardboards for you. After you asked
for all the Brady materials, and even though it was
Brady, most of that, they didn't produce all the
evidence around. So what I'm saying is that they never
physically produced a copy of those cardboards to you.
They produced a copy of the overall, but never actually
produced a copy, a physical copy of those two
cardboards. Is that correct?
A

I don't recall that. My recollection is that I had all
the discovery, and before we start a trial we go down
through the checklist of everything that has been
provided, and basically one or two of us read off a
document, and then we find it and make sure it's there.
I don't see anything to indicate I didn't have that
discovery, so I don't know how to answer that question.
I can't tell you what I don't recall.

Q

Okay. But is still doesn't say - - they didn't
actually give you a copy of the cardboard notes.
That's all I'm saying.

A

I don't recall seeing cardboard notes, copy of
statement - -

Q

That's all I'm asking you, sir.

A

Okay.

(R. 401-03)
In denying this claim for relief, the trial court found that
the testimony of trial counsel and the court record refuted
Appellant's claim.

Trial counsel and the record show that trial

counsel had all of the documents he needed during Petitioner's
trial to cross examine the witnesses that the State put on the
witness stand.

(R. 401)

Even though trial counsel did not
-10-

r
►j.t

recall having "cardboard" given to him in discovery, he said
that he did not make any notes about missing anything, and that
he was aware of what Mr. Nelson would be testifying about,
and
his notes.
(R. 392) Even if trial counsel did not have the
cardboard, Petitioner's claim that the cardboard notes would
have made a difference in his case were entirely speculative as
he admitted that he did not know.what they said.
Under the facts of this case, the trial court did not abuse
its discretion in denying Appellant's Brady claim.

Nor did it

abuse its discretion in finding that trial counsel was not
ineffective for failing to pursue the "cardboard backs" or push
for a Brady violation. Trial counsel cannot be considered
ineffective for failing to raise an issue that has little
likelihood of success.

Card v. State

497 So,2d 1169, 1177

(Fla. 1986); Branch v. State, 952 So. 2d 470, 476 (Fla.
2006)(finding counsel not ineffective for failing to file motion
which would have been properly denied)
Next, Appellant argues that trial counsel was ineffective for
failing to call an alibi witness, Renardo Daniels, at his trial.
Mr. Renardo Daniels testified at the evidentiary hearing that,
had he been called by the defense to testify, he would have
testified before the jury that his brother was nowhere
near the
murder because he was delivering medical supplies at the time of

-11 -

